E-Mail Address: 775 H Street, N.E.

Fstsyval briefs@wilsonepes.com Washington, D.C. 20002
WSO ING Web Site: Tel (202) 789-0096
ces www.wilsonepes.com Fax (202) 842-4896
No. 19-123

SHARONELL FULTON, ET AL., PETITIONER
v.

CITY OF PHILADELPHIA, ET AL.,

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on August 20, 2020, three (3) copies of the BRIEF OF HISTORIANS
OF CHILD WELFARE AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above-
captioned case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

MARK LEONARD RIENZI LESLIE COOPER
THE BECKET FUND FOR RELIGIOUS LIBERTY AMERICAN CIVIL LIBERTIES UNION
1200 New Hampshire Avenue, NW 125 Broad Street
Suite 700 New York, NY 10004
Washington, DC 20036 (212) 519-7815
(202) 955-0095 Counsel for Intervenor-Respondents
Counsel for Petitioners NEAL KUMAR KATYAL
JEFFREY B. WALL HOGAN LOVELLS US LLP

Acting Solicitor General 555 Thirteenth Street, NW
UNITED STATES DEPARTMENT OF JUSTICE Washington, DC 20004
950 Pennsylvania Avenue, NW (202) 637-5528
Washington, DC 20530-0001 Counsel for Respondents City of
(202) 514-2217 Philadelphia, et al.

Counsel for Amicus Curiae
Supporting Petitioners

The following email addresses have also been served electronically:

mrienzi@becketlaw.org
Icooper@aclu.org
neal.katyal@hoganlovells.com

SupremeCtBriefs@USDOJ.gov Z W J,

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 20th day of August 2020.

COLIN CASEY(fIOGAN

NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

   
